                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




             LIMITED SCOPE AUDIT REPORT

                                    ON SELECTED
                                   NEA GRANTS TO

    AMERICAN SAMOA COUNCIL ON ARTS,
       CULTURE AND HUMANITIES
                               REPORT NO. LS-11-01

                                        July 15, 2011




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                        INTRODUCTION

BACKGROUND
The American Samoa Council on Arts, Culture and Humanities (Council) focuses its resources on fostering
and strengthening indigenous art forms throughout the Territory.

OBJECTIVE, SCOPE AND METHODOLGY
Limited scope audits involve a limited scope review of financial and non-financial information of grant
recipients to ensure validity and accuracy of reported information, and compliance with state and federal
requirements. The objective of this limited scope audit was to determine whether:

    •   The grantee fulfilled the financial and compliance requirements as set forth in the grant awards;
    •   The total project costs claimed under the grants were reasonable, allocable and allowable;
    •   The required match was met on National Endowment for the Arts (NEA) grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2007), issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and other
auditing procedures that were considered necessary under the circumstances. The “Standards” require that
we obtain sufficient, competent, and relevant evidence to afford a reasonable basis for our findings and
conclusions. We reviewed the Council’s system of internal control and judgmentally selected a sample of
transactions for testing from each of the grants reviewed.
.
During the period under review, the Council had six NEA grants active with awards totaling $1,352,060
(see Appendix A). Our audit was limited to those four grants in which NEA funds had been drawn down
and costs had been reported. The Council received a waiver from the one-to-one matching requirement
from the NEA. For each of the grants reviewed, a partial match was required.

PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General has not issued any audit reports on federal
grants awarded to the Council. However, the Council was included in the Territory of American Samoa
United States Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
Governments and Non-Profits Organizations, audits for the years ended 2007 and 2008. RC Holsinger
Associates, P.C., an Independent Certified Public Accounting firm, performed the audits, which resulted in
qualified opinions for both years. The audit reports noted weaknesses in internal control and instances of
noncompliance with federal awards program requirements that were considered to be material. None of the
issues of internal control and noncompliance were associated with NEA grants at the Council. The Council
is not considered a major program because NEA grants did not meet the dollar threshold ($3,000,000) to be
considered a major Federal Program for the years indicated.




                                                     1
                                        RESULTS OF AUDIT
The Council’s financial management system is administered in conjunction with the American Samoa
Government (ASG). The ASG Department of Treasury’s accounting system tracks NEA and local funds
for the Council separately. In addition, the Council maintains a tracking system to monitor the activities
and expenditures of each grant. However, we found that internal controls could be strengthened and we
identified instances of noncompliance with NEA and OMB requirements, a potential conflict of interest and
questionable costs charged to the grants. The Council did not have a completed Section 504 self-evaluation
workbook on file, as required.

According to the NEA General Terms and Conditions for Grants and Cooperative Agreements to
Organizations (General Terms), and applicable OMB Circulars:
       Recipients must have accounting structures that provide accurate and complete information about all
       financial transactions related to each Federally-supported project.


A description of our findings for each of the grants reviewed is indicated as follows:

                                     INTERNAL CONTROLS
Questioned Costs
During our review, we identified several questionable costs charged to the selected grants.         Specifically,
the following costs are questioned:

For Grant Numbers 08-6100-2018, 07-6100-2067, 06-6100-2057 and 05-6100-2055,
A. Unsupported/Duplicate Expenditures

   •   Grant Numbers 06-6100-2057 and 07-6100-2067 included payments in the amount of $8,500 and
       $5,600, respectively, for grant writing services for the same period from two service providers. The
       supporting documentation described the service as: grant writing and Territorial strategic planning
       for NEA funding period 2009-2011. We are questioning $8,500 charged to Grant Number 06-6100-
       2057 and $5,600 charged to Grant Number 07-6100-2067 because of possible “overlapping" costs.

   •   Grant Numbers 05-6100-2055 and 08-6100-2018, included charges for website development
       services. The services included creating, developing and designing a customized web site with
       online donations and shopping capabilities. However, we could not verify that the work was
       performed because we were unable to locate a dedicated website or a webpage on the ASG website
       for the Council. Therefore we are questioning the following costs:

           o Grant Number 05-6100-2055, $1,450 and $1,500 charged for 6 months of website
             maintenance, domain restoration and website services.
           o Grant Number 08-6100-2018, $6,000 charged for website development, “from scratch,” and
             “to be started up before the end of 2008.”




                                                         2
      •    For Grant Number 07-6100-2067, we found that the federal share of expenditures reported on the
           final Financial Status Report (FSR) were overstated in the amount of $1,171, which indicates that
           the total NEA grant award was not expended, as required. The FSR reported $252,055 for the
           federal share of outlays which was also the total award amount. The expenditure listing provided
           for the federal share of total outlays documented $250,884. Although the total expenditures
           exceeded the award amount, the Council should ensure that its financial management system
           accurately reflects the total expenditure of the federal award.

           OMB Circular A-110, 215.20 Subpart C, states in part:

                   Federal fund recipients are required to maintain an adequate financial system which will provide
                   effective control over and accountability for all funds, property and other assets.



For Grant Numbers 07-6100-2067, 06-6100-2057 and 05-6100-2055,
B. Reporting Actual Expenditures

Our review found that although the Council, in conjunction with the ASG, Department of Treasury Grants
Office has a system in place to track actual expenditures for each grant, the Council did not report actual
expenditures on its final FSR as required. For the above grants, we found that the Council reported the
local appropriation as the “recipient’s share of outlays,” instead of actual expenditures. The NEA
Instructions for Completing the FSR stated that “total actual project outlays” are to be reported.

For example, $44,000 was required as a partial match for Grant Number 05-6100-2055. 1 The Council
reported $44,000 on its final FSR as the “recipient’s share” which was also the total amount of the
appropriated local funding to the Council for that fiscal year. However, the expenditure listing provided
documented $38,598 charged as matching expenditures. As a result, the total outlays were overstated by
$5,402. Therefore, we are questioning $5,402 in matching costs.

We believe that a more accurate reflection of actual costs would occur if the Council and the ASG’s
Department of Treasury Grant Office work together to prepare the financial reports.


For Grant Numbers 05-5100-2055 and 06-6100-2057,
C. Potential Conflict of Interest

           •   We identified a potential conflict of interest between a service provider and a Council official,
               who has the authority to request and approve payments. The provider received a total of $12,215
               in payments from Grants 05-5100-2055 ($3,715) and 06-6100-2057 ($8,500). However,
               $11,450 is included in the questioned costs above. As a result, we are questioning an additional
               $765.




1
    Grant Number 05-6100-2055 is the only grant reviewed which required a specific amount of matching expenditures.

                                                               3
                OMB Circular A-110, Para. 215.42 Codes of Conduct states, in part:

                The recipient shall maintain written standards of conduct governing the performance of its employees
                engaged in the award and administration of contracts. No employee, officer, or agent shall participate in the
                selection, award, or administration of a contract supported by Federal funds if a real or apparent conflict of
                interest would be involved. Such a conflict would arise when the employee, officer or agent, any member of
                his or her immediate family, his or her partner, or an organization which employs or is about to employ any
                of the parties indicated herein, has a financial or other interest in the firm selected for an award.

Recommendation – Questioned Costs

We are not requiring any additional documentation to support the total questioned costs in the amount of
$30,388 for Grant Numbers 05-6100-2055, 06-6100-2057 and 07-6100-2067 and 08-6100-2018 (see
Appendix A) because if all of the questioned costs were disallowed under each of the grants, the partial
matching requirements would still be met. For each grant reviewed, the Council’s total adjusted outlays 2
exceeded the NEA award amount. However, we recommend the Council develop policies and implement
procedures to ensure:

          •     The financial management system accurately reflects the total expenditure of federal awards.

          •     Only actual and allowable costs are reported on its Requests for Advance or Reimbursement
                (payment requests) and final Federal Financial Reports (FFR) 3.

          •     Coordination with the ASG Department of Treasury Grants Office to verify total expenditures
                prior to submission of the financial reports to the NEA to ensure that the reports are supported
                by actual expenditures recorded in the ASG’s financial system for both the NEA grant and any
                matching funds, as required by the NEA award agreement; and.

          •     The Council develops a written policy governing code of conduct and conflict of interest
                standards in accordance with the NEA General Terms and OMB Circular A-110.

In-Kind Contributions
In the above grants, in-kind contributions were included in the approved project budgets; however, in-kind
contributions were not included in the total outlays reported on the final FSRs. During our review, we
were provided with documentation, including the determination of value, to support in-kind contributions
However, in some instances, the documentation did not have the required approval signatures (donor and
official), grant numbers and project periods.

We believe that a more accurate reflection of program costs would occur if the Council includes in-kind
contributions, in its recipient’s share of total outlays.




2
    Adjusted Outlays – Total outlays reported on the final FSR minus the total questioned costs.
3
    Formerly the Financial Status Report

                                                                  4
Recommendation

We recommend the Council develop written policies and implement procedures to ensure that in-kind
contributions are adequately documented and included in its total outlays.

Indirect Costs

Indirect cost rates are negotiated by the ASG Department of Treasury. However, during our review we
found that the Council included indirect costs using expired rates on its final FSRs. According to General
Terms, Section 15:

       If the rate expires during the period of support, a proposal must be submitted in time for the rate to be
       renegotiated before the end of the period of support.

Recommendation

We recommend the Council develop written policies and implement procedures to ensure that only current
indirect cost rates are used for reporting indirect costs on its FFR.

Final Report Submissions
The Council did not submit final financial status reports (FSR) and final descriptive reports (FDR), within
90 days of the project period end date in accordance with NEA and OMB guidelines. Although the Council
requested extensions, in most cases the requests were made after the due date of the final reports. NEA
General Terms, Section 7(g) states, in part:

       All final reporting requirements must be fulfilled within 90 days of the project period end date. Extension
       requests submitted after the fact may not be approved and may jeopardize future Arts Endowment funding.

OMB Circular A-110, Para 215.25, Revision of Budget and Program Plans, states, in part:

       The recipient must notify the Federal awarding agency with the supporting reasons and revised expiration date
       at least 10 days before the expiration date in the award.

Recommendation

We recommend that the Council develop written policies and implement procedures to ensure that the Final
Report package including the FFR and FDR, and any required work products(s) are submitted no later than
90 days after the project period end date. The policy should also ensure that if the due date cannot be met,
a request for extension is submitted to NEA, in writing, at least 10 days before the due date of the final
reports.




                                                           5
For Grant Numbers 07-6100-2067 and 06-6100-2057:
Inaccurate Expenditures
During our review of expenditures we noted that expenditures for Grant Number 07-6100-2067 were
incorrectly charged to Grant Number 06-6100-2057. The mistake appeared to be an isolated case as a
result of a hand written correction on the payment voucher.

Recommendation

We recommend that the Council develop policy and implement procedures to monitor grant expenditures to
ensure that only allowable and accurate charges are made to the appropriate grant.


                                                 COMPLIANCE

Subrecipient Monitoring
Federal laws, rules, regulations and OMB Circulars that apply to NEA recipients generally also apply to
subrecipients of NEA supported awards. As part of our review, we selected an Arts in Education mini
grant charged to Grant Number 08-6100-2018 to determine whether the Council provided its subrecipients
instructions and information as required by NEA General Terms and OMB regulations. Our review of the
application and award materials found that the Council included the NEA logo, acknowledgment of NEA
support, and the recipient’s responsibility to comply with federal regulations. However, the Council did not
provide subrecipients with identification information such as the Catalogue of Federal Domestic Assistance
(CFDA) title and Federal award number. NEA’s General Terms, Section 31, Subgranting, state, in part,
that:

        The grantee must provide potential subrecipients with your Federal award and associated
        Catalog of Federal Domestic Assistance (CFDA) numbers.

Recommendation

We recommend the Council include the CFDA and federal grant numbers in its subrecipient application
and award materials.


Debarment and Suspension
The Council did not have procedures in place to ensure that recipients were not debarred or suspended prior
to the award of Federal funds 4. OMB Circular 102, Subpart C Section 35 states in part:
        Federal awarding agencies and recipients shall comply with the nonprocurement debarment and suspension
        common rule implementing E.O.s 12549 and 12689, "Debarment and Suspension." This common rule restricts

4
 Information may be obtained on parties that are debarred or debarred from receiving Federal funds from the General Services
Administration (GSA) Excluded Parties List System web site at: https://www.epls.gov.


                                                              6
       subawards and contracts with certain parties that are debarred, suspended or otherwise excluded from or
       ineligible for participation in Federal assistance programs or activities.

Recommendation

We recommend that the Council develop written policies and implement procedures to ensure that grants
are not awarded to companies and or individuals which have been debarred or suspended from receiving
Federal funds.

Section 504 Self-Evaluations
The Council did have the required Section 504 self-evaluation on file, however it was not completed. As
noted in NEA’s General Terms, “A Section 504 self-evaluation must be on file at your organization.” A
Section 504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504Workbook.html.

Section 504 of the rehabilitation Act of 1973, as amended, provides for equal opportunity to enter facilities
and participate in programs and activities. It does not require that every part of every facility or program be
accessible. The important considerations are that individuals with disabilities have the same opportunities
in employment, the same opportunities to enter and move around in facilities, the same opportunities to
communicate and the same opportunities to participate in programs and activities as non-disabled people.
Further, it is important to offer employment, programs, and services in settings that are integrated rather
than to segregate individuals with disabilities with special programs.

Recommendation

We recommend the Council complete, and update as necessary, a Section 504 self-evaluation workbook to
ensure compliance with the Rehabilitation Act of 1973, as amended. A copy of the self-evaluation should
be submitted to the OIG. The OIG will provide a copy to NEA’s Office of Civil Rights/EEO.


EXIT CONFERENCE
An exit conference was held with Council officials and staff on September 10, 2009, with a follow-up
telephone conference July 5, 2011. The officials acknowledged the findings and recommendations and
indicated they were in agreement on implementing the recommendations.

                                      RECOMMENDATIONS
We also recommend the Council develop policies and implement procedures to ensure:

   1. The financial management system accurately reflects the total expenditure of federal awards.

   2. Code of conduct and conflict of interest standards are established in accordance with NEA General
      Terms and OMB Circular A-110.


                                                         7
3. Only actual and allowable costs are reported on its Requests for Advance or Reimbursement
   (payment requests) and final Federal Financial Report (FFR). Those procedures should also ensure:

           a. Employees, who prepare the payment requests and FFRs, are familiar with the cost
              principles of OMB Circulars A-102 and A-87.

          b. All reports and payment requests should be prepared in accordance with instructions from
             the NEA Grants and Contracts Office

           c. An independent review of reports/payment requests is performed prior to submission to
              the NEA.

4. Grant expenditures are monitored to ensure that only allowable and accurate charges are made to
   the appropriate grant.

5. Coordination with the ASG Department of Treasury Grants Office to verify total expenditures prior
   to submission of the financial reports to the NEA to ensure that the reports are supported by actual
   expenditures recorded in the ASG’s financial system for both the NEA grant and any matching
   funds, as required by the NEA award agreement

6. In-kind costs are adequately documented and included in its total outlays.

7. The inclusion of indirect costs, as allowed by a Federally-negotiated agreement, is approved by the
   NEA as required by the General Terms. The policy should ensure that only current indirect cost
   rates are used for reporting total outlays.

8. Final Report packages including the FFR and FDR, and any required work products(s) are
   submitted no later than 90 days after the project period end date. The policy should also ensure that
   if the due date cannot be met, a request for extension is submitted to NEA, in writing, at least 10
   days before the due date of the final reports.

9. The CFDA title and federal grant numbers are included in the subrecipient application and award
   materials.

10. Grants are not awarded to companies and or individuals that have been debarred or suspended from
    receiving Federal funds.

11. A Section 504 self-evaluation is conducted to ensure compliance with the Rehabilitation Act of
    1973, as amended.




                                                 8
                                                                                                            Appendix A

                       American Samoa Council on the Arts, Culture and Humanities
                                    SCHEDULE OF GRANTS SELECTED FOR AUDIT



                                                                      Reported      Questioned
    Grant Amount       Grant Number             Grant Period           Outlays        Costs                    Project Description


                                                                                                 Purpose was to preserve jobs in the
                                                                                                 nonprofit arts sector (American Recovery
$    25,000          09-6188-2122*              4/1/09-3/31/10         $0                $0      and Reinvestment Act)
                                                                                                 Purpose was to support partnership
$ 287,355            09-6100-2064*             10/1/09-9/30/10         $0                $0      agreement activities.
                                                                                                 Purpose was to support partnership
$ 284,355            08-6100-2018**           10/1/08 - 9/30/09     $ 196,532      $ 6,000       agreement activities.
                                                                                                 Purpose was to support partnership
$ 252,055            07-6100-2067             10/1/07 - 9/30/09     $ 302,055      $ 6,771       agreement activities.
                                                                                                 Purpose was to support partnership
$ 253,155            06-6100-2057             10/1/06 - 9/30/07     $ 276,575      $ 8,500       agreement activities.
                                                                                                 Purpose was to support partnership
$ 250,140            05-6100-2055             10/1/05 - 9/30/06     $ 294,140      $ 9,117       agreement activities.
$1,352,060                                                                         $ 30,388

*These grants were not selected for audit since no costs were reported under the two grants at the time of the site visit.
** Grant was reviewed, however; it was not closed at the time of the site visit. Reported outlays as of May 31, 2009.




                                                                       1
